               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03649-52




    Combined Assessment Program 

            Review of the 

         Michael E. DeBakey 

         VA Medical Center 

           Houston, Texas 





January 24, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 COS            Chief of Staff
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Michael E. DeBakey VA Medical Center
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MSIT           Multidisciplinary Safety Inspection Team
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                        CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Review Activity with Previous CAP Recommendations ......................................... 16

  Follow-Up on EOC Rounds Attendance.................................................................. 16


Appendixes
  A. Facility Profile ....................................................................................................        17

  B. Strategic Analytics for Improvement and Learning ............................................                                18

  C. VISN Director Comments ..................................................................................                    21

  D. Facility Director Comments ...............................................................................                   22

  E. OIG Contact and Staff Acknowledgments .........................................................                              27

  F. Report Distribution .............................................................................................            28

  G. Endnotes ...........................................................................................................         29





VA OIG Office of Healthcare Inspections
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
November 4, 2013.

Review Results: The review covered seven activities and one follow-up review area
from the previous Combined Assessment Program review.                           We made no
recommendations in the following two activities:

 Medication Management

 Coordination of Care

Recommendations: We made recommendations in the following five activities and
follow-up review area:

Quality Management: Appoint the Chief of Staff as the chairperson of the Peer Review
Committee. Consistently initiate Focused Professional Practice Evaluations for newly
hired licensed independent practitioners, and report the results to the Medical Executive
Committee. Perform continued stay reviews on at least 75 percent of patients in acute
beds. Include the Chief of Staff as a member of the Operating Room Committee.
Ensure the Blood Utilization Committee member from Surgery Service consistently
attends meetings.

Environment of Care: Ensure patient care areas and restrooms are clean, and repair
damaged towel dispensers, doors and doorframes, and floors and baseboards. Train
all locked mental health unit staff and Multidisciplinary Safety Inspection Team
members on identifying and correcting environmental hazards, proper use of the Mental
Health Environment of Care Checklist, and VA’s National Center for Patient Safety
study of suicide on psychiatric units.

Nurse Staffing: Include all required members on the facility expert panel.

Pressure Ulcer Prevention and Management: Accurately document pressure ulcer
location, stage, risk scale score, and date acquired for all patients with pressure ulcers.

Community Living Center Resident Independence and Dignity: Document restorative
nursing initial weekly assessments.

Follow-Up on Environment of Care Rounds Attendance: Ensure all required participants
or their designees consistently attend environment of care rounds.




VA OIG Office of Healthcare Inspections                                                          i
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 21–26, for the full
text of the Directors’ comments.) We consider recommendation 9 closed. We will
follow up on the planned actions for the open recommendations until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities and follow-up review area from the previous CAP review:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

   	 Follow-Up on EOC Rounds Attendance

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.




VA OIG Office of Healthcare Inspections                                                         1
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


The review covered facility operations for FYs 2012, 2013, and 2014 through
November 4, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Michael E. DeBakey VA Medical Center, Houston, Texas,
Report No. 09-03275-147, May 13, 2010). We made repeat recommendations in QM
and EOC rounds attendance.

During this review, we presented crime awareness briefings for 273 employees.
These briefings covered procedures for reporting suspected criminal activity to the OIG
and included case-specific examples illustrating procurement fraud, conflicts of interest,
and bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
327 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.




VA OIG Office of Healthcare Inspections                                                         2
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
 X     The protected peer review process met               Twenty months of PRC meeting minutes
       selected requirements:                              reviewed:
        The PRC was chaired by the COS and                 The COS was a member of the PRC but was
          included membership by applicable service           not the chairperson.
          chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
 X     FPPEs for newly hired licensed independent          Seventy-eight profiles reviewed:
       practitioners were initiated, completed, and         Fifteen FPPEs (19 percent) were not initiated.
       reported to the MEC.                                 None of the results of the 63 completed
                                                             FPPEs were reported to the MEC. This was
                                                             a repeat finding from the previous CAP
                                                             review.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
         appropriately privileged staff.
        Professional practice evaluation information
         was available for review.




VA OIG Office of Healthcare Inspections                                                                    3
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


NM             Areas Reviewed (continued)                                     Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
 X     Staff performed continuing stay reviews on at       Twelve months of continuing stay data reviewed:
       least 75 percent of patients in acute beds.          For all 12 months, less than 75 percent of
                                                             acute inpatients were reviewed.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected            Twelve months of Operating Room Committee
       requirements:                                       meeting minutes reviewed:
        An interdisciplinary committee with                The COS was not a member.
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                    4
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


NM              Areas Reviewed (continued)                                     Findings
 X     The process to review blood/transfusions            Twelve months of the Blood Utilization
       usage met selected requirements:                    Committee meeting minutes reviewed:
        A committee with appropriate clinical              The clinical representative from Surgery
          membership met at least quarterly to review        Service attended only one of four meetings.
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1.   We recommended that the COS be appointed as the chairperson of the PRC.

2. We recommended that processes be strengthened to ensure that FPPEs for newly hired
licensed independent practitioners are consistently initiated and that results are reported to the
MEC.

3. We recommended that processes be strengthened to ensure that continued stay reviews
are performed on at least 75 percent of patients in acute beds.

4.   We recommended that the Operating Room Committee include the COS as a member.

5. We recommended that processes be strengthened to ensure that the Blood Utilization
Committee member from Surgery Service consistently attends meetings.




VA OIG Office of Healthcare Inspections                                                                    5
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected one medical, one surgical, one surgical intensive care, and one geriatric and
acute psychiatry unit; two CLCs; a primary care and an audiology clinic; the emergency
department; the domiciliary; and an x-ray and a fluoroscopy unit. Additionally, we reviewed
relevant documents, conversed with key employees and managers, and reviewed 30 employee
training records (10 radiology employees, 10 acute MH unit employees, 5 MSIT members, and
5 occasional acute MH unit employees). The table below shows the areas reviewed for this
topic.    The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                  Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.          Ten of 13 patient care areas were not clean.
                                                            Public and/or staff restrooms in or adjacent to
                                                             eight patient care areas were in need of
                                                             cleaning.
                                                            The following maintenance issues were
                                                             identified:
                                                             o Damaged towel dispensers with sharp
                                                                 exposed pieces in 3 of the 13 patient care
                                                                 areas.  
                                                             o Damaged doors and/or doorframes in 7 of
                                                                 the 13 patient care areas.
                                                             o Damaged floors and/or baseboards in 4 of
                                                                 the 13 patient care areas.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.


VA OIG Office of Healthcare Inspections                                                                    6
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


NM             Areas Reviewed for Radiology                                   Findings
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.




VA OIG Office of Healthcare Inspections                                                                    7
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


NM      Areas Reviewed for Acute MH (continued)                                Findings
 X     MH unit staff, MSIT members, and occasional          Five of the locked MH unit staff and four of
       unit workers received training on how to              the MSIT members had not completed the
       identify and correct environmental hazards,           required training.
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
       Locked MH unit(s) were in compliance with
       MH EOC Checklist safety requirements or an
       abatement plan was in place.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

6. We recommended that processes be strengthened to ensure that patient care areas and
restrooms are clean and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that damaged towel
dispensers, doors and doorframes, and floors and baseboards are repaired and that ongoing
maintenance be monitored.

8. We recommended that processes be strengthened to ensure that all locked MH unit staff
and MSIT members receive training on how to identify and correct environmental hazards,
proper use of the MH EOC Checklist, and VA’s National Center for Patient Safety study of
suicide on psychiatric units and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                     8
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 32 randomly selected inpatients discharged on
1 of 3 selected oral antibiotics. The table below shows the areas reviewed for this topic.
Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                      Areas Reviewed                                        Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                    9
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 34 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                        Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   10
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 28 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 3 randomly selected units—acute medical/surgical unit 4B, CLC unit 4D, and MH
unit 6F—for 50 randomly selected days between October 1, 2012, and September 30, 2013.
The table below shows the areas reviewed for this topic. The area marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
 X     The facility expert panel followed the required      The facility expert panel did not include
       processes and included the required                   evening and night supervisory staff, staff
       members.                                              nurses and other nursing staff providing direct
                                                             care, and nurse managers from the various
                                                             areas of the facility.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

9. We recommended that the annual staffing plan reassessment process ensures that the
facility expert panel includes all required members.




VA OIG Office of Healthcare Inspections                                                                   11
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 23 EHRs of patients with pressure ulcers (5 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
8 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                         Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                   In 6 of the 23 EHRs, staff did not consistently
       documenting location, stage, risk scale score,        document the location, stage, risk scale
       and date acquired.                                    score, and/or date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                    12
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


NM             Areas Reviewed (continued)                                     Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

10. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   13
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 16 EHRs of residents (10 residents receiving restorative nursing services and
6 residents not receiving restorative nursing services but candidates for services). We also
observed 2 residents during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The area marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
 X     The facility complied with any additional           Facility policy on restorative nursing reviewed:
       elements required by VHA or local policy.            Eight of the applicable 10 residents’ EHRs did
                                                             not contain documentation of the facility’s
                                                             required initial weekly resident progress and
                                                             revision of goals by the restorative
                                                             coordinator.




VA OIG Office of Healthcare Inspections                                                                   14
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


NM         Areas Reviewed for Assistive Eating                                  Findings
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

11. We recommended that processes be strengthened to ensure that the restorative nursing
initial weekly assessment is documented and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   15
                                          CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX



     Review Activity with Previous CAP Recommendations 

Follow-Up on EOC Rounds Attendance
As a follow-up to a recommendation from our previous CAP review, we reassessed facility
compliance with EOC rounds attendance.8

EOC Rounds. VHA requires that the Director or Associate Director lead weekly EOC rounds.
Managers in nursing, building management, engineering, safety, patient safety, and infection
control must be included as well as the Information Security Officer and others, as required.
We reviewed EOC rounds documentation and determined that all required participants or their
designees did not consistently participate in EOC rounds.

Recommendation

12. We recommended that processes be strengthened to ensure that all required participants or
their designees consistently attend EOC rounds.




VA OIG Office of Healthcare Inspections                                                                   16
                                     CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                             Appendix A


Facility Profile (Houston/580) FY 2014 through October 2013a
Type of Organization                                                       Tertiary
Complexity Level                                                           1a-High complexity
Affiliated/Non-Affiliated                                                  Affiliated
Total Medical Care Budget in Millions                                      $762.5
Number (as of November 2013) of:
    Unique Patients                                                       48,886
    Outpatient Visits                                                     173,554
    Unique Employeesb                                                     3,805
Type and Number of Operating Beds:
    Hospital                                                              397
    CLC                                                                   141
    MH                                                                    40
Average Daily Census:
    Hospital                                                              306
    CLC                                                                   124
    MH                                                                    35
Number of Community Based Outpatient Clinics                               7
Location(s)/Station Number(s)                                              Beaumont/580BY
                                                                           Charles Wilson/580BZ
                                                                           Galveston County/580GC
                                                                           Conroe/580GD
                                                                           Katy/580GE
                                                                           Lake Jackson/580GF
                                                                           Richmond/580GG
VISN Number                                                                16




a
    All data is for FY 2014 through October 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                              17
                                                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                                                       Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                        18
                                                     CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                             19
                                                                                                CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


                                                                         Metric Definitions
 Measure                       Definition                                                                           Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)    A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                              A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                           A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                 A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                          A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)       A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                        A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                    A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                               A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                 A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                       A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                 A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)    A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value
 PSI                           Patient safety indicator                                                             A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                     A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                       A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction              A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                 A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction            A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure               A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                              A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                  A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                       A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)           A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                           20
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                       Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       January 3, 2014

          From:        Director, South Central VA Health Care Network (10N16)

       Subject:        CAP Review of the Michael E. DeBakey VA Medical
                       Center, Houston, TX

             To:       Director, Dallas Office of Healthcare Inspections (54DA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. The South Central VA Health Care Network (VISN 16) has reviewed
          and concurs with the draft Combined Assessment Program report for
          the Michael E. DeBakey VA Medical Center, Houston, TX.

       2. If you have questions regarding the information submitted, please
          contact Reba T. Moore, VISN 16, Accreditation Specialist at
          (601) 206-7022.




       Rica Lewis-Payton, MHA FACHE 

       Director, South Central VA Health Care Network (10N16) 





VA OIG Office of Healthcare Inspections                                                        21
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                       Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       December 27, 2013

          From:        Director, Michael E. DeBakey VA Medical Center (580/00)

       Subject:        CAP Review of the Michael E. DeBakey VA Medical
                       Center, Houston, TX

             To:       Director, South Central VA Health Care Network (10N16)

       I have reviewed the report and concur with the recommendations. Action
       plans have been implemented to comply with the recommendations.




       Adam C. Walmus, MHA, FACHE

       Director, Michael E. DeBakey VA Medical Center (580/00) 





VA OIG Office of Healthcare Inspections                                                        22
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the COS be appointed as the chairperson
of the PRC.

Concur

Target date for completion: Completed December 13, 2013

Facility response: The Chief of Staff (COS) has been appointed as the chairperson of
the Peer Review Committee. The Deputy COS will serve as the Acting COS in the
absence of the COS. 


Recommendation 2. We recommended that processes be strengthened to ensure that

FPPEs for newly hired licensed independent practitioners are consistently initiated and

that results are reported to the MEC. 


Concur

Target date for completion: December 23, 2013

Facility response: A revised process of tracking FPPEs for newly hired providers
through Credentialing and Privileging will be initiated. The process will involve tracking
through to completion and reporting of results to the Clinical Executive Board.

Recommendation 3. We recommended that processes be strengthened to ensure that
continued stay reviews are performed on at least 75 percent of patients in acute beds.

Concur

Target date for completion: June 1, 2014

Facility response: The UM Program will be restructured to achieve maximum efficiency
and effectiveness. Plans are being initiated to increase the number of FTEEs allocated
to the program to increase the number of continued stay reviews with the goal of
reviewing at least 75 percent of patients in acute beds.

Recommendation 4. We recommended that the Operating Room Committee include
the COS as a member.

Concur

Target date for completion: December 13, 2013


VA OIG Office of Healthcare Inspections                                                        23
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


Facility response: The Chief of Staff has been added to the membership of the
Operating Room Committee.

Recommendation 5. We recommended that processes be strengthened to ensure that
the Blood Utilization Committee member from Surgery Service consistently attends
meetings.

Concur

Target date for completion: January 31, 2014

Facility response: Expectations for consistent meeting attendance by required services
has been communicated. Surgery Service, as well as all required services will be
required to have a designated representative and an alternate to ensure consistent
representation at each meeting of the Blood Utilization Committee.

Recommendation 6. We recommended that processes be strengthened to ensure that
patient care areas and restrooms are clean and that compliance be monitored.

Concur

Target date for completion: January 31, 2014

Facility response: Although regular cleaning is conducted, materials used in original
construction of the facility, e.g., floor tiles with white grout and plastic covered bases,
present challenges in maintaining an aesthetic appearance. Planned renovation
projects include a comprehensive redesign of the amenities to address these issues. In
addition to daily cleaning, we have initiated a process to ensure detailed cleaning on an
ongoing basis. Compliance will be monitored through Environment of Care and
supervisory rounds.       Additionally, Environmental Management Service is being
realigned to report directly to the Deputy Medical Center Director for increased oversight
in ensuring that cleanliness remains a major focus for the medical center.

Recommendation 7. We recommended that processes be strengthened to ensure that
damaged towel dispensers, doors and doorframes, and floors and baseboards are
repaired and that ongoing maintenance be monitored.

Concur

Target date for completion: January 31, 2014

Facility response: A general maintenance schedule has been developed. Plans have
been initiated to increase facility maintenance staff to adequately address ongoing
structural needs. An in-house construction team will be assigned to implement the
general maintenance schedule to ensure compliance with addressing ongoing
maintenance needs. Quarterly monitoring will be conducted.




VA OIG Office of Healthcare Inspections                                                        24
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


Recommendation 8. We recommended that processes be strengthened to ensure that
all locked MH unit staff and MSIT members receive training on how to identify and
correct environmental hazards, proper use of the MH EOC Checklist, and VA’s National
Center for Patient Safety study of suicide on psychiatric units and that compliance be
monitored.

Concur

Target date for completion: January 15, 2014

Facility response: All mental health unit staff has been assigned the Mental Health
Environment of Care training and VA’s National Center for Patient Safety study of
suicide on psychiatric units in VA Talent Management System (TMS) to be completed
on an annual basis. All members of the Mental Health Safety Inspection Team will also
be assigned to complete this training in TMS. Monthly monitoring of training completion
will be conducted.

Recommendation 9. We recommended that the annual staffing plan reassessment
process ensures that the facility expert panel includes all required members.

Concur

Target date for completion: Completed November 30, 2013

Facility response: The facility expert panel has been updated to include all required
members. The panel includes evening and night supervisory staff, staff nurses and
other nursing staff providing direct care, and nurse managers from the various areas of
the facility.

Recommendation 10. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: Completed November 30, 2013

Facility response: Skin Risk Management Team, in conjunction with the simulation lab
and skills fair has re-educated staff on the Braden Scale and appropriate
documentation. Nurse Executives and Nurse Managers have initiated monthly
monitoring for compliance.




VA OIG Office of Healthcare Inspections                                                        25
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX


Recommendation 11. We recommended that processes be strengthened to ensure
that the restorative nursing initial weekly assessment is documented and that
compliance be monitored.

Concur

Target date for completion: Completed December 6, 2013

Facility response: The Restorative Coordinator documents the initial assessment within
the first 7 days of initial evaluation. Goals are revised as appropriate for each resident
on the program. Monthly record reviews will be conducted to ensure compliance.

Recommendation 12. We recommended that processes be strengthened to ensure
that all required participants or their designees consistently attend EOC rounds.

Concur

Target date for completion: November 30, 2013

Facility response: Expectations for consistent participation in EOC rounds by all
required participants has been communicated. Additionally, the rounds have been
modified to facilitate consistent participation by required staff. Monthly monitoring will
be conducted.




VA OIG Office of Healthcare Inspections                                                        26
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Trina Rollins, MS, PA-C, Team Leader
Contributors            Gayle Karamanos, MS, PA-C
                        Cathleen King, MHA, CRRN
                        Larry Ross, MS
                        James Werner, Special Agent In Charge, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Misti Kincaid, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        27
                               CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, South Central VA Health Care Network (10N16)
Director, Michael E. DeBakey VA Medical Center (580/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Cornyn, Ted Cruz
U.S. House of Representatives: Kevin Brady, John Culberson, Louie Gohmert,
 Al Green, Michael T. McCaul, Pete Olson, Mac Thornberry, Randy Weber


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        28
                                      CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                            29
                                      CAP Review of the Michael E. DeBakey VA Medical Center, Houston, TX



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.
8
  The reference used for this topic was:
	 Deputy Under Secretary for Health for Operations and Management, “Environmental Rounds,” memorandum,
   March 5, 2007.




VA OIG Office of Healthcare Inspections                                                                    30
